HHS/OIG-Audit--"Review of Backlog of Medicare Secondary Payer Claims, (A-04-92-02057)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Backlog of Medicare Secondary Payer Claims," (A-04-92-02057)
June 29, 1993
Complete
Text of Report is available in PDF format (1.06 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report contains the results of our review of the Health Care Financing Administration's (HCFA) oversight pertaining
to the reporting of Medicare secondary payer (MSP) backlog claims. We concluded that the contractor's backlog reports were
not filed timely nor was the information being reviewed and verified by HCFA. Because of the lack of internal controls,
there was inadequate management oversight on contractors to ensure that the regulatory deadline imposed on the collection
of MSP overpayments is met once the primary payer has been identified. Our review shows that based on the contractor backlog
reports, the Medicare program could lose approximately $445 million if contractors do not notify the liable primary insurers
by December 31, 1992.